APPENDIX

957 F.3d 122
United States Court of Appeals, Second Circuit.

[1]

UNITED STATES of America, Appellee,
v.
Jose ESCALERA AKA Tank, Charles Hecht,
Defendants,
Giovanni Cotto AKA Monte, Defendant-Appellant.

...

Obstructing Justice
witness

Retaliating against

To sustain a conviction for retaliating against a
witness, the government must prove beyond a
reasonable doubt that the defendant acted with
retaliatory intent arising out of a person’s
testimony at an official proceeding, and that the
proceeding in which the person testified was in
fact a federal proceeding, such as one before a
judge or court of the United States, but there is
no requirement that the defendant know that the
proceeding in question was federal in nature. 18
U.S.C.A. §§ 1513(b)(1), 1515(a)(1).

Docket No. 18-2970
|
August Term, 2019
|
Argued: November 15, 2019
|
Decided: April 20, 2020

Synopsis
Background: Defendant convicted of retaliating against a
witness appealed from order of the United States District
Court for the Western District of New York, Richard J.
Arcara, Senior District Judge, 2018 WL 2410374, which
denied his motions for judgment of acquittal and for new
trial, and sentenced him to 115 months’ imprisonment
with four years of supervised release.

[2]

...

Criminal Law
Offenses

Creation and Definition of

For purposes of distinguishing between
substantive and jurisdictional elements in federal
criminal statutes, while “substantive elements of
a crime” describe the evil Congress seeks to
prevent, “jurisdictional elements” simply
connect the law to one of Congress’s
enumerated powers, thus establishing legislative
authority.

Holdings: The Court of Appeals, Leval, Senior Circuit
Judge, held that:
[1]

as matter of first impression, government was not
required to prove that defendant knew of federal nature of
proceeding in which he retaliated for witness’s
cooperation with law enforcement;

[2]

District Court was within its discretion in denying
defendant’s motion for new trial; and

[3]

...

Criminal Law

Acts prohibited by statute

While courts generally assume that Congress
intends to require a defendant to possess a
culpable mental state regarding each of the
statutory elements that criminalize otherwise
innocent conduct, that presumption does not
apply to jurisdictional elements.

[3]

sentencing enhancement for causing substantial
interference with administration of justice was warranted.

Affirmed in part and remanded in part.
Procedural Posture(s): Appellate Review; Post-Trial
Hearing Motion; Sentencing or Penalty Phase Motion or
Objection.

[4]

West Headnotes (15)

A-1

...

Criminal Law

Acts prohibited by statute

[8]
When Congress has said nothing about the
mental state pertaining to a jurisdictional
element courts assume that Congress wanted
such an element to stand outside the otherwise
applicable mens rea requirement.

[5]

Acts prohibited by statute
[9]

When the statute itself provides no indication
that Congress intended for the offense to require
knowledge of a jurisdictional element, and when
the legislative history does not show that such a
knowledge element was intended, courts
generally conclude that no such requirement
exists.

[6]

Acts prohibited by statute
[10]

When the statutory text or legislative history
makes clear that a statute’s mens rea element
extends to a jurisdictional element, courts give
effect to that requirement.

[7]

...

Criminal Law
General

Grounds for New Trial in

Before ordering a new trial, the district court
must find that there is a real concern that an
innocent person may have been convicted. Fed.
R. Crim. P. 33.

...

Obstructing Justice
witness

...
...

Criminal Law Nature and scope of remedy of
new trial in general
Criminal Law Discretion of court as to new
trial
Motions for new trial are granted only in
extraordinary circumstances, and are committed
to the trial court’s discretion. Fed. R. Crim. P.
33.

...

Criminal Law

Superfluousness

The canon disfavoring statutory interpretations
that render text superfluous is not woodenly
applied and permits such readings when
Congress may have simply intended to remove
any doubt about a statute’s meaning.

...

Criminal Law

...

Statutes

Retaliating against
[11]

Statute prohibiting retaliation against a witness
does not extend statute’s mens rea element to
jurisdictional element, and, thus, government is
not required to prove that defendant knew of
federal nature of proceeding in which he
retaliated for witness’s cooperation with law
enforcement. 18 U.S.C.A. §§ 1513(b)(1),
1515(a)(1)(A).

......

Criminal Law
Criminal Law

New Trial
Motion for new trial

The Court of Appeals reviews challenges to a
district court’s denial of a motion for new trial
for abuse of discretion, accepting the district
court’s factual findings unless clearly erroneous.
Fed. R. Crim. P. 33.

[12]

A-2

...

Criminal Law

Contradictory statements by

witness
District Court was within its discretion, in
prosecution for retaliating against a witness, in
denying defendant’s motion for new trial based
on claim that Court erred by limiting his
counsel’s cross-examination of codefendant
regarding inconsistent statements, where the
Court allowed defense counsel to play four
recordings of phone calls in which codefendant
had said that he beat witness merely because he
was “having a bad day,” but reasonably
determined that counsel’s playing fifth tape
would be cumulative. 18 U.S.C.A. § 1513(b)(1);
Fed. R. Crim. P. 33.

retaliating against a witness, where brutal
beating of witness not only resulted in
substantial delay of his testimony, but also
resulted in substantial and noticeable diminution
in witness’s capacity or willingness to testify. 18
U.S.C.A. § 1513(b)(1);
U.S.S.G. §
2J1.2(b)(2).

*124 Appeal from the United States District Court for the
Western District of New York (Arcara, J.)
Attorneys and Law Firms

[13]

..

Sentencing and Punishment

Degree of Proof

The facts justifying a sentence imposed under
the Sentencing Guidelines need be proved only
by a preponderance of the evidence.
U.S.S.G. § 1B1.1 et seq.

Martin J. Vogelbaum, Federal Public Defender’s Office,
Western District of New York, Buffalo, New York, for
Defendant-Appellant.
Monica J. Richards, Assistant United States Attorney, for
James P. Kennedy, Jr., United States Attorney for the
Western District of New York, Buffalo, New York, for
Appellee.
Before: Pierre N. Leval, Debra Ann Livingston, Joseph F.
Bianco, Circuit Judges.

[14]

.......

Criminal Law
Criminal Law
Criminal Law

Opinion

Review De Novo
Sentencing
Sentencing

The Court of Appeals reviews challenges to
criminal
sentences
for
procedural
reasonableness, a standard akin to review for
abuse of discretion, which requires the Court of
Appeals to review the district court’s
interpretation of the Sentencing Guidelines de
novo, and its findings of fact for clear error.
U.S.S.G. § 1B1.1 et seq.

[15]

..

Sentencing and Punishment

Perjury

Sentencing enhancement for causing substantial
interference with administration of justice was
warranted, in sentencing defendant for

LEVAL, Circuit Judge:
Defendant Giovanni Cotto (“Cotto”) appeals from a
September 24, 2018 judgment of conviction in the United
States District Court for the Western District of New
York (Richard J. Arcara, J.) following a jury trial in
which the jury found him guilty on a single count of
retaliating against a witness (Anthony Maldonado) in
violation of 18 U.S.C. § 1513(b)(1). The district court
U.S.S.G.
applied the specific offense characteristic in
§ 2J1.2(b)(2) to increase Cotto’s base offense level on the
grounds that Cotto’s offense resulted in a substantial
interference with the administration of justice, and
sentenced Cotto principally to 115 months of
imprisonment with four years of supervised release. Cotto
raises several arguments on appeal. 1) Cotto argues that
the Government’s evidence was insufficient to establish
that he was aware that Maldonado’s testimony, which
motivated Cotto’s retaliation, was in a “proceeding before
a judge or court of the United States,” and argues that

A-3

such knowledge is a required element of the crime of
conviction under 18 U.S.C. § 1513(b)(1), see Br. of
Appellant at 7 (quoting § 1513(b)(1)) (emphasis added);
2) Cotto contends that the district court improperly
limited his counsel’s cross-examination of a witness at
trial and demands a new trial on that basis; 3) Cotto
argues that the district court improperly applied the
U.S.S.G. § 2J1.2(b)(2)
sentencing enhancement under
(for substantial interference with the administration of
justice) and demands a remand for resentencing; 4) He
argues finally that the conditions of his supervised release
impermissibly *125 delegated judicial authority to the
United States Probation Office, and demands their
revision. As to that contention, the Government consents
to a limited remand so that the district court can amend
the judgment of supervised release. For the reasons
below, we affirm the conviction and the sentence, with
the exception that, relying on the Government’s consent,
we remand for revision of the substance abuse treatment
condition of Cotto’s supervised release. We further
instruct the district court to consider on remand whether
our forthcoming order in United States v. Traficante, No.
18-1962 (2d Cir., submitted Oct. 25, 2019) requires
modification of the risk notification provision of
supervised release, and grant the parties leave to reinstate
this appeal to permit review of the district court’s decision
on remand as to the risk notification provision.

A. BACKGROUND

i. Cotto’s crime
In 2014, Cotto was an inmate at the Cattaraugus County
Jail. The basis of his conviction in this case was that on
May 23, 2014, at the Cattaraugus County Jail, he procured
the assault of Anthony Maldonado (“Maldonado”),
another Cattaraugus inmate, in retaliation for
Maldonado’s having testified for the Government in a
federal court trial that was taking place in the Buffalo
federal courthouse. Prior to these events, the victim,
Maldonado, had admitted to federal authorities that he
had participated in the murder of a witness who was, at
the time of the murder, cooperating in the federal
prosecution of a narcotics conspiracy. Maldonado
revealed to federal prosecutors that the witness’s murder
had been orchestrated by several individuals, including
Jose Martinez. Maldonado’s cooperation led to the
indictment and eventual trial in the United States District

Court for the Western District of New York before Judge
William Skretny of Martinez, Angel Marcial, and several
other individuals (the “Martinez trial”). Marcial and
Martinez were charged in that case with retaliating against
a witness and killing him. Maldonado was a witness for
the prosecution at that trial. He provided direct testimony
on May 20, 2014, and was cross-examined on May 21 and
May 22. The court adjourned for the Memorial Day
weekend on May 22, before the completion of
Maldonado’s cross-examination, and the trial was set to
continue on May 27.
On May 22, 2014, Marcial was in the custody of the U.S.
Marshal at the federal courthouse in Buffalo while
awaiting his appearance as a co-defendant in the Martinez
trial. Also in the U.S. Marshal’s custody at the Buffalo
federal courthouse was Jose Escalera, then one of
Maldonado’s fellow inmates at the Cattaraugus County
Jail. Escalera was at the federal courthouse as a defendant
in a separate trial before Judge Arcara. Marcial and
Escalera had previously been fellow inmates at another
Erie County jail, where they shared access to the same
facilities and likely became acquainted. On May 22, 2014,
Marcial and Escalera were held in two of three cells on
the ninth floor of the federal courthouse and were able to
communicate with each other.
At the end of the day on May 22, after the adjournment of
the Martinez trial in which Maldonado was testifying,
Escalera, Maldonado, and Franky Ramos, also a
Cattaraugus inmate, were transported together from the
federal courthouse to the Cattaraugus County Jail. During
that ride, Escalera told Ramos that Maldonado was
“ratting on a big case” in the “federal courthouse.”
(Ramos testified to that conversation at Cotto’s trial.)
App’x at 357–58. Other evidence at Cotto’s trial
suggested that Cotto, Ramos, Marcial, and Escalera *126
all were active or former members of the Latin Kings, a
gang that operates within the prison system.
According to the testimony of another Cattaraugus
inmate, Daniel Colon, upon Ramos’s return to the
Cattaraugus County Jail on May 22, Ramos told Cotto
that Maldonado had been in court that day. Cotto then
called down the cell gallery to Maldonado and asked him
“if he went to court today.” App’x at 569. Cotto then said
to Escalera: “That’s got to be him.” App’x at 570.
The next day, Escalera asked Esteban Ramos-Cruz,
another Cattaraugus inmate (who testified to that
conversation at Cotto’s trial), to tell Cotto that Maldonado
“was testifying against a Latin King.” App’x at 498.
Ramos-Cruz refused, but Escalera then apparently
instructed another inmate to give Cotto the message.

A-4

No evidence adduced at trial indicates whether Ramos or
any other person told Cotto that Maldonado had provided
testimony in a federal trial. While several witnesses at
Cotto’s trial testified that other inmates at Cattaraugus
knew that Maldonado had been “going to federal court
day after day,” App’x at 566, 719–20, there was no
testimony that Cotto was told that Maldonado was going
to federal court.
That same day — May 23, 2014 — Cotto informed
another Cattaraugus inmate, Charles Hecht, that
Maldonado “was a rat,” and instructed Hecht to beat
Maldonado in the recreation yard. App’x at 615–16. Later
that day, while Cotto, Hecht, and Maldonado were in the
recreation yard, Cotto repeated to Hecht that Maldonado
was “a rat” that Hecht should “fuck him up.” App’x at
622. Hecht then brutally assaulted Maldonado, with the
result that he was removed from the recreation yard in a
wheelchair. After the assault, Cotto “bragg[ed]” to Ramos
that he, Cotto, had sent Hecht to beat Maldonado, and that
Maldonado “deserved to get beat up.” App’x at 366.
When the Martinez trial resumed on May 27, 2014,
Maldonado was unable to continue his testimony because
his jaw was wired shut as a result of Hecht’s beating. The
trial continued, but Maldonado’s cross-examination was
deferred until three weeks later, on June 16, 2014, after
Maldonado’s jaw had healed. An Assistant United States
Attorney who participated in the Martinez trial testified at
Cotto’s trial that, upon Maldonado’s return to court, he
“did not seem to remember the details about which he was
crystal clear prior to the assault,” gave “significantly
shorter” answers to questions, and that Maldonado’s
“capacity was substantially diminished.” App’x at 175.
The jury in the Martinez trial found Martinez guilty of a
drug conspiracy charge, but found Martinez and the other
defendants not guilty on the witness retaliation charge.

ii. Cotto’s indictment and trial
On July 25, 2014, a grand jury returned the present
indictment charging Cotto, Escalera, and Hecht with one
count of retaliating against a witness in violation of 18
U.S.C. § 1513(b)(1).1 Cotto and Escalera *127 pled not
guilty, and their trial took place in July 2017. Hecht pled
guilty and agreed to testify at trial for the Government in
the trial of Cotto and Escalera.
At trial, Hecht testified to having assaulted Maldonado at
Cotto’s direction. Hecht also testified during his direct
examination that he and Cotto devised a cover story to

explain the assault. They planned that Hecht would say he
was having a bad day, and that Maldonado had said
something to Hecht to provoke the assault. Hecht further
explained that, after he learned the seriousness of the
offense of witness retaliation, he changed his story and
told the “true story” to get a better plea deal. App’x at
631. On cross-examination, Hecht testified that he had
lied to the officers who first interviewed him about the
assault, and that he had told his girlfriend his “cover
story” — i.e., that he assaulted Maldonado because he
was “having a bad day.” App’x at 673, 692. Cotto sought
to discredit Hecht’s corrected account of the events by
playing to the jury recordings of several of Hecht’s phone
calls with his girlfriend and others in which he asserted
his non-retaliatory cover story. When, after playing four
of the conversations, Cotto’s counsel initiated playing a
fifth such conversation, the district court sustained the
Government’s objection as “cumulative.” App’x at 695.
On redirect examination, Hecht again testified that the
version he initially told to the interviewing officers and to
his girlfriend was a false cover story.
The district court instructed the jury that the Government
was required to prove “that the defendant acted with
intent to retaliate against Anthony Maldonado for his
attendance at or his testimony given in any official federal
proceeding.” App’x at 854.2 The court explained that
“[a]n official federal proceeding includes a criminal
proceeding before a federal court or a federal judge,” and
instructed the jury that “the case of United States v.
Martinez, 10-CR-233S, is an official federal proceeding.”
App’x at 854–85. The court, however, did not instruct the
jury that it was required to find that the defendants had
knowledge of the federal nature of the proceeding in order
to convict them.
The jury returned a verdict of guilty, and, in response to a
special verdict question, found that Maldonado “was a
witness in an official federal proceeding in which was
charged an offense for which a maximum term of life
imprisonment could have been imposed.” App’x at 879.
In a post-trial motion for a judgment of acquittal under
Federal Rule of Criminal Procedure 29, Cotto argued,
inter alia, that the Government’s evidence was
insufficient to show that Cotto knew that Maldonado was
testifying in a federal case at the time of the beating,
because there was “no evidence that Ramos-Cruz [or
anyone else] conveyed anything more to Cotto than that
Maldonado was testifying against [a Latin King].” Dist.
Ct. Dkt. No. 269 at 9.3 The district court denied the
motion on *128 May 29, 2018, holding that the jury
“could have concluded that [Cotto] learned or inferred
from Ramos — a federal prisoner who received his

A-5

information from another federal prisoner — that
Maldonado was testifying in the place from which Ramos
and Escalera had recently learned their information: a
federal court.” United States v. Cotto, No. 14-cr-133-A,
2018 WL 2410374, at *5 (W.D.N.Y. May 29, 2018). The
district court did not consider the question whether § 1513
required the Government to prove such knowledge.
Prior to sentencing, the Probation Department
recommended in its Presentence Investigation Report
U.S.S.G. § 2J1.2(b)(2)’s
(“PSR”) the application of
three-level enhancement for committing an offense
resulting in the “substantial interference with the
administration of justice,” and recommended as a
condition of supervised release a program of substance
abuse treatment requiring Cotto to submit to
non-consensual in-patient treatment if “approved by the
Court” and to continue such treatment until completion or
“as ordered by the Court.” Dist. Ct. Dkt. No. 314 at 8, 27.4
The district court imposed the three-level enhancement
§ 2J1.2(b)(2), sentencing Cotto to 115 months
under
imprisonment.5
As part of the sentence, the district court orally imposed a
four-year term of supervised release, with a substance
abuse treatment condition requiring Cotto to “enter into
any treatment as deemed necessary by the U.S. Probation
Office,” and prohibiting Cotto from leaving treatment
“until discharge is agreed to by the U.S. Probation
Office.” App’x at 949–50. The court entered the written
judgment on September 24, 2018, and included a special
condition of supervised release requiring Cotto to undergo
treatment “as deemed necessary by the U.S. Probation
Office and/or the Court,” and prohibiting him from
leaving treatment “until discharge is agreed to by the U.S.
Probation Office and/or the Court.” App’x at 958. The
judgment also included the district court’s standard
condition of supervision, permitting the probation officer,
in the event the officer “determines that [Cotto] pose[s] a
risk to another person,” to “require [Cotto] to notify the
person about the risk.” App’x at 957. Cotto timely
brought this appeal.

Government to prove that Cotto knew that the proceeding
in which Maldonado had testified was a federal
proceeding — in other words, “a proceeding before a
judge or court of the United States,” 18 U.S.C. §
1515(a)(1)(A); Post-Argument Br. of Appellant 3–8, and
that the Government’s *129 evidence failed to prove his
knowledge, Br. of Appellant 21–25.6 We hold that to
convict under § 1513(b)(1) the Government is not
required to prove that the defendant knew of the federal
nature of the proceeding. Accordingly, we need not
consider whether the Government’s evidence was
sufficient to prove Cotto’s knowledge.
Section 1513(b) provides:
Whoever knowingly engages in any conduct and
thereby causes bodily injury to another person ... or
threatens to do so, with intent to retaliate against any
person for—
(1) the attendance of a witness or party at an
official proceeding, or any testimony given ... by a
witness in an official proceeding; or
(2) any information relating to the commission or
possible commission of a Federal offense ... given
by a person to a law enforcement officer;
or attempts to do so, shall be fined under this title or
imprisoned not more than 20 years, or both.
[1]

Section 1515 sets out definitions of terms used in §
1513. It defines “official proceeding” to include “a
proceeding before a judge or court of the United States,”
and defines “law enforcement officer” as “an officer or
employee of the Federal Government.” 18 U.S.C. §
1515(a)(1), (4). There is no question that, to sustain a
conviction under § 1513(b)(1), the Government must
prove beyond a reasonable doubt that the defendant acted
with retaliatory intent arising out of a person’s testimony
at an “official proceeding,” and that the proceeding in
which the person testified was in fact a federal
proceeding, such as one “before a judge or court of the
United States.” Id. § 1513(b); id. § 1515(a)(1).7 That the
statute is limited to acts of retaliation for testimony at
federal proceedings, however, does not necessarily
require that the defendant know that the proceeding in
question was federal.

B. DISCUSSION

i. Witness retaliation under 18 U.S.C. § 1513(b)(1)
Cotto’s principal argument on appeal is that the crime of
conviction under 18 U.S.C. § 1513(b)(1) required the

a. Applicable Law
Whether § 1513(b)(1) requires proof that the defendant

A-6

knew of the federal nature of the proceeding is an issue of
first impression in this circuit.8 In similar cases *130
concerning the application of a mens rea requirement in a
federal criminal statute to an element limiting that statute
to offenses that relate to the federal government or its
jurisdiction, we have “look[ed] to the language of the
statute, the intent of Congress as expressed in the
legislative history, and cases involving the interpretation
of this and similar statutes” for guidance. United States v.
Allen, 788 F.3d 61, 66 (2d Cir. 2015) (citations omitted)
(considering whether 18 U.S.C. § 1855, which imposes
criminal penalties for willfully setting fire to federal land,
requires that the defendant know the land is federal).9
[2] [3] [4]

The focal point of our inquiry is whether the
element requiring that the official proceeding be federal is
a substantive or a jurisdictional element of the offense.
While substantive elements of a crime “describe the evil
Congress seeks to prevent,” jurisdictional elements
simply “connect[ ] the law to one of Congress’s
enumerated powers, thus establishing legislative
Torres v. Lynch, ––– U.S. ––––, 136 S. Ct.
authority.”
id. at
1619, 1630, 194 L.Ed.2d 737 (2016); see also
1626 (noting the “well-established background principle
distinguishing between substantive and jurisdictional
Rehaif v.
elements in federal criminal statutes”);
United States, ––– U.S. ––––, 139 S. Ct. 2191, 2196, 204
L.Ed.2d 594 (2019) (explaining that jurisdictional
elements “normally have nothing to do with the
wrongfulness of the defendant’s conduct”).10 And while
we generally assume that “Congress intends to require a
defendant to possess a culpable mental state regarding
‘each of the statutory elements that criminalize otherwise
Rehaif, 139 S. Ct. at 2195
innocent conduct,’ ”
United States v. X-Citement Video, Inc., 513
(quoting
U.S. 64, 72, 115 S.Ct. 464, 130 L.Ed.2d 372 (1994)), that
presumption does not apply to jurisdictional elements,
id. at 2196 (“[J]urisdictional elements ... are not
subject to the presumption in favor of scienter.”). Instead,
“when Congress has said nothing about the mental state
pertaining to a jurisdictional element ... [c]ourts assume
that Congress wanted such an element to stand outside the
Torres,
otherwise applicable mens rea requirement.”
United States v. Feola,
136 S. Ct. at 1631; see also
420 U.S. 671, 676 n.9, 95 S.Ct. 1255, 43 L.Ed.2d 541
(1975) (“[T]he existence of the fact that confers federal
jurisdiction need not be one in the mind of the actor at the
time he perpetrates the act made criminal by the federal
statute.”).

require knowledge of a jurisdictional element, and when
the legislative history does not show that such a
knowledge element was intended, courts generally
conclude that no such requirement exists. See, e.g.,
United States v. Epskamp, 832 F.3d 154, 166–67 (2d
21
Cir. 2016) (holding that the statute then codified at
U.S.C. § 959(b), which prohibits possession of a
controlled substance by “any person on board an aircraft
owned by a United States citizen or registered in the
United States,” does not require evidence of the
defendant’s knowledge concerning the aircraft’s
registration); Allen, 788 F.3d at 69 (holding that 18 U.S.C.
§ 1855, which prohibits arson of “lands owned or leased
by or under the partial, concurrent, or exclusive
jurisdiction of the United States,” does not require
knowledge that the lands are federal); United States v.
Jennings, 471 F.2d 1310, 1312 (2d Cir. 1973) (holding
that while the federal anti-bribery statute, codified at
18 U.S.C. § 201(b)(1), requires that “the official
[bribed] must be a federal official ..., nothing in the statute
requires knowledge of this fact, which we perceive as a
jurisdictional prerequisite rather than as a scienter
requirement”).
[6]

When, on the other hand, the statutory text or legislative
history makes clear that a statute’s mens rea element
extends to a jurisdictional element, courts give effect to
Epskamp, 832 F.3d at 167
that requirement. See
(noting that an “obvious exception” to the rule that
“knowledge of the jurisdictional fact ... [is not] an
essential element” is “when the statute itself requires
knowledge of the jurisdictional element” (quoting
United States v. Eisenberg, 596 F.2d 522, 526 (2d Cir.
1979))).11
United States v. Yermian, for example, the Supreme
In
18 U.S.C. § 1001, which
Court considered whether
prohibits false statements to the government, requires the
Government to prove that the defendant knew that his
false statement was made to a “department or agency of
468 U.S. 63, 68, 104 S.Ct. 2936,
the United States.”
12
§ 1001 provided:
82 L.Ed.2d 53 (1984). At the time,

Whoever, in any matter within the
jurisdiction of any department or
agency of the United States
knowingly and willfully ... makes
any false, fictitious or fraudulent
statements or representations, ...
shall be fined ....

*131 [5]Accordingly, when the statute itself provides no
indication that Congress intended for the offense to

A-7

Id.13 Noting that the “jurisdictional language appears in
id. at
a phrase separate from the prohibited conduct,”
§
69, 104 S.Ct. 2936, and that the legislative history of
1001 did not provide any basis to read *132 the statute as
requiring a “specific intent to deceive the Federal
Government” (as opposed to a state or local government),
id. at 73, 104 S.Ct. 2936, or “actual knowledge that
false statements were made in a matter within federal
id., the Court concluded that the
agency jurisdiction,”
“primary purpose” of the jurisdictional language was to
“identify the factor that makes the false statement an
id. at 68, 104
appropriate subject for federal concern,”
S.Ct. 2936. Accordingly, the Court held that proof that the
defendant knew the fact establishing jurisdiction —
namely, that the false statement was made to the federal
Id.
government — was not required under the statute.
at 75, 104 S.Ct. 2936.

b. Analysis
Neither the text nor legislative history of § 1513
demonstrates that Congress considered a defendant’s
knowledge of the federal nature of the “official
proceeding” to be an essential element of the offense.
Indeed, they suggest the contrary — that Congress
regarded the federal limitation as a jurisdictional element
and not part of what rendered the defendant’s conduct
culpable.

[7]

First, and most fundamentally, the text of § 1513 does not
extend that section’s knowledge requirement to the
definition of “official proceeding” provided in a separate
section of Title 18.14 Second, even assuming an ambiguity
in the text that would prompt us to turn to other tools of
Conn. Nat’l Bank v.
statutory interpretation, see
Germain, 503 U.S. 249, 253–54, 112 S.Ct. 1146, 117
L.Ed.2d 391 (1992), the legislative history confirms that
Congress intended the limitation of § 1513 to acts of
retaliation for participation in federal proceedings as a
jurisdictional element, i.e. a provision to limit the effect of
the statute to offenses within Congress’s power to
regulate. S. Rep. No. 97-532, at 19, 22, as reprinted in
1982 U.S.C.C.A.N. 2515, 2525, 2528 (explaining that §
1513 is limited to offenses related to “Federal” “official
proceeding[s]” in order to avoid overextending federal
jurisdiction); see also 128 Cong. Rec. 26,351 (1982)
(statement of Chairman Rodino) (explaining, with respect
§ 1512 and § 1513, that “the Federal nature of
to both
the proceeding ... go[es] to the power of the Federal

government to assert jurisdiction over conduct, rather than
to the criminal nature of the conduct”).15 *133 There is no
clear indication in the legislative history that Congress
intended the limitation to federal proceedings to do
anything more than “ensure that the Federal Government
has the constitutional authority to regulate the defendant’s
Rehaif, 139 S. Ct. at 2196. It is not as if
conduct.”
Congress deemed retaliatory assaults on witnesses in state
proceedings to be innocent conduct which would be
worthy of prohibition only if a federal proceeding were
involved. See United States v. Ardito, 782 F.2d 358,
361–62 (2d Cir. 1986) (holding that a similar
anti-obstruction provision, 18 U.S.C. § 1503, does not
require the Government to prove that the defendants knew
that they obstructed a trial in federal court to secure a
conviction for obstruction of justice).
To the contrary, the “findings and purposes” section of
the bill enacting § 1513 states an intention to “enhance
and protect the necessary role of crime victims and
witnesses in the criminal justice process” and to “ensure
that the Federal Government does all that is possible ... to
assist victims and witnesses of crime.” Victim and
Witness Protection Act of 1982, Pub. L. No. 97-291 §
2(b), 96 Stat. 1248 (1982); see also S. Rep. 97-532 at 20
(“The intent of section 1513 is to expand considerably the
protections offered by [other provisions of Title 18] to
victims and witnesses.”). Importantly, the Senate Report
specifically states that § 1513 was meant to “expand” the
protections already provided by, inter alia, 18 U.S.C. §
1503, which, the Senate Report notes, “relates to
witnesses in criminal proceedings, but only applies to
witnesses under subpoena in cases which are still active,”
S. Rep. 97-532 at 14, and “does not explicitly provide for
unsuccessful attempts at retaliation,” id. at 20. An offense
under § 1503 for obstructing justice at a judicial
proceeding does not require the Government to prove that
the defendant knew that the obstructed proceeding was
federal in nature. Ardito, 782 F.2d at 362; see also
United States v. Aragon, 983 F.2d 1306, 1310 (4th Cir.
1993). We cannot conclude, absent sufficient basis in the
statutory text or legislative history, that Congress intended
to impose on § 1513 a limitation that does not exist in a
parallel statutory provision whose protections § 1513 was
expressly intended to expand.
Furthermore, adding such a knowledge requirement to §
1513 would significantly undercut the accomplishment of
its purposes. It will often be the case that the federal
nature of a particular proceeding has absolutely no
relevance to a defendant’s motivation to retaliate for a
witness’s cooperation with law enforcement.16 One might
reasonably assume that the reason the Government had
relatively scant evidence that Cotto knew of the federal

A-8

nature of the Martinez trial was that this particular fact
was irrelevant to Cotto’s motivation for ordering the
attack on Maldonado. When Ramos-Cruz testified at trial
about his conversation with Escalera on May 23 — during
which Escalera implored him to inform Cotto that
Maldonado “was a snitch” — he testified that, when
Escalera made his request, Escalera merely *134 told him
that Maldonado “was testifying against a Latin King,” and
said nothing about whether the proceeding was in federal
or state court. App’x at 498. As may be true in many
cases of witness retaliation, the fact of the witness’s
betrayal of his partners in crime — and the potentially
devastating future consequences of a witness’s continuing
cooperation with law enforcement — was motivation
enough. To require the Government to establish the
defendant’s awareness of the federal nature of the
proceeding in which the witness testified, when the
federal nature of the proceeding was irrelevant to the
retaliatory motivation, would often preclude effective
Torres, 136 S.
prosecutions of witness retaliation. See
Ct. at 1630. We can surmise no reason why Congress
would wish to do so, and do not impute to Congress a
limitation that the statutory text does not require. Cf.
Feola, 420 U.S. at 684, 95 S.Ct. 1255 (in a case
concerning a statute prohibiting assaults on federal
officers, declining to require a showing that the defendant
knew the victim to be a federal officer, noting that “[a]
contrary conclusion would give insufficient protection to
the agent”); Noel, 893 F.3d at 1298 n.1 (noting that “the
protective effect of the statute would be undermined if the
prosecution had to show” knowledge of the jurisdictional
element).

Section 1512 and Chairman
c. Comparison to
Rodino’s Floor Statements
Cotto’s strongest, but nonetheless still insufficient
argument is that for a parallel provision of the same
statute, the Victim and Witness Protection Act of 1982,
18 U.S.C. § 1512, which imposes criminal penalties on
defendants who use force to “influence, delay, or prevent
the testimony of any person in an official proceeding,”
Congress added a provision expressly providing that the
Government need not prove that the defendant knew the
18 U.S.C. §
federal nature of the official proceeding.
1512(g). Cotto contends that Congress’s inclusion of this
§ 1512, but not in § 1513,
clarifying subsection in
demonstrates Congress’s intention to require knowledge
of the jurisdictional element for § 1513 prosecutions. He
also calls our attention to a floor statement of

Representative Peter Rodino, then-Chairman of the House
Judiciary Committee, which indicates that Mr. Rodino
believed that, without such a provision, courts would
require the Government to prove a defendant’s knowledge
of the jurisdictional elements, which he believed would be
§ 1512 than of §
more harmful to the objective of
1513. Mr. Rodino’s statements were based on a
misunderstanding of how courts interpret jurisdictional
elements in federal criminal statutes.17 We are not
persuaded that his floor statements and the inclusion of
§ 1512 compel departure
the clarifying provision in
from our well-established and sensible default rule that
knowledge of purely jurisdictional elements is generally
not required.
The relevant provisions of

18 U.S.C. § 1512 state:

(b) Whoever knowingly uses intimidation, threatens,
or corruptly persuades another person, or attempts to
do so ... with intent to—
*135 (1) influence, delay, or prevent the testimony
of any person in an official proceeding ... [or]
(3) hinder, delay, or prevent the communication to
a law enforcement officer or judge of the United
States of information relating to the commission
or possible commission of a Federal offense ...
shall be fined under this title or imprisoned not
more than 20 years, or both.
(g) In the prosecution for an offense under this
section, no state of mind need be proved with
respect to the circumstance—(1) that the official
proceeding ... is before a judge or court of the
United States ....
§ 1512, does not include a
Section 1513, unlike
provision that the government need not prove the
defendant’s “state of mind ... with respect to the
circumstance ... that the official proceeding ... is before a
judge or court of the United States.” See Post-Argument
Br. of Appellant at 5–7. Cotto urges us to draw from this
difference the conclusion that Congress intended to
require the Government to prove the defendant’s
knowledge of the federal nature of the proceeding when
§
prosecuting offenses under § 1513, but not under
1512.
In support of this position, Cotto points to a ruling of a
United States v. Denham, 663
Kentucky district court,
F. Supp. 2d 561 (E.D. Ky. 2009), concerning §
1513(b)(2), which prohibits retaliation for the giving of

A-9

information about a federal offense to a federal law
enforcement officer. The court concluded that §
1513(b)(2) does require knowledge that the law
enforcement officer was federal, relying in part on the
§ 1512, but not in §
inclusion of subsection (g) in
Denham, 663 F. Supp. 2d at 568–69. The court
1513.
explained the discrepancy between the two provisions by
§ 1512 concerns attempts to prevent
explaining that
the communication to federal officers of “information
[that] may not yet have been provided, which makes a
defendant much less likely to know of the involvement of
a federal officer,” while § 1513 concerns attempts to
retaliate for information already provided to law
Id. at 569–70. Accordingly, the
enforcement.
Denham court reasoned, Congress could have included
§ 1512 out of concern that requiring
subsection (g) in
a showing of the defendant’s knowledge that the “law
enforcement officer” to whom the victim provided
information was a federal officer would make
§ 1512 too difficult — and could
prosecutions under
have declined to include a similar provision in § 1513 due
to Congress’s judgment that proving such knowledge
when prosecuting retaliation for testimony already given
Id.
would be far easier.
Denham court also pointed to Mr. Rodino’s floor
The
statements as follows:

[ Section 1512(g)] is necessary
because of the convention that the
state of mind applicable to the
conduct required for the offense
also applies to any circumstances
or results that are required. Because
the terms “official proceeding” and
“law enforcement officer” are
defined in section 1515 to mean
Federal proceeding and Federal
officer ... it would be necessary for
the prosecution, absent [subsection
(g) ], to prove that the defendant
knew the official proceeding or law
enforcement officer was a Federal
proceeding or Federal officer.

128 Cong. Rec. 26,351 (1982) (statement of Chairman
Rodino). Chairman Rodino further explained:

By the nature of the offense
[specified in § 1513], the
wrongdoer knows that the person
retaliated against has been a party
to or witness in a Federal
proceeding or has reported
information to a Federal law
enforcement officer. It is therefore
*136 unnecessary to preclude the
applicability for the convention on
states of mind [for the § 1513
offense].

Id. at 26,354 n.13.
Denham court’s
We respectfully disagree with the
conclusion. Mr. Rodino’s statements must be read in light
of his mistaken belief that courts would require the
Government to prove the defendant’s knowledge of
federal jurisdictional elements. See 128 Cong. Rec. at
26,351. As the Supreme Court had clarified seven years
before Chairman Rodino made this statement, “the
existence of the fact that confers federal jurisdiction need
not be one in the mind of the actor at the time he
perpetrates the act made criminal by the federal statute.”
Feola, 420 U.S. at 676 n.9, 95 S.Ct. 1255; see also
MODEL PENAL CODE § 1.13 cmt. at 211 (Official
Draft and Revised Comments 1985) (explaining that mens
rea is “irrelevant” with respect to jurisdictional elements).
Mr. Rodino was incorrect to conclude that, but for
subsection (g) of § 1512, “it would be necessary ... to
prove that the defendant knew the official proceeding ...
was a Federal proceeding.” 128 Cong. Rec. at 26,351.
[8]

Mr. Rodino’s floor statement reveals that his mistaken
concern with the possibility that courts would require
§ 1512
knowledge of federal involvement for
prosecutions did not extend to § 1513. But Mr. Rodino’s
lack of concern for the possible requirement of knowledge
that the proceeding was federal in § 1513 is not the same
as an intent to impose such a limiting requirement on the
offense defined by that section. As discussed above, the
“default rule” is that, “when Congress has said nothing
about the mental state pertaining to a jurisdictional
element, ... [c]ourts assume that Congress wanted such an
element to stand outside the otherwise applicable mens
Torres, 136 S. Ct. at 1631. We
rea requirement.”
cannot infer, from a single member’s misinformed floor
statement explaining refusal to tolerate wrongly predicted
§ 1512, that
judicial rulings requiring knowledge as to
Congress as a whole intended that the courts depart from

A-10

the sensible “default rule” for the application of
knowledge requirements to the jurisdictional elements of
Garcia v. United States, 469 U.S.
another section. See
70, 76, 105 S.Ct. 479, 83 L.Ed.2d 472 (1984) (“We have
eschewed reliance on the passing comments of one
Member [of the Legislature] and casual statements from
the floor debates [when surveying legislative history].”
(citations omitted)).18
Mr. Rodino appears also to have been misinformed as to
the adverse consequences of imposing this knowledge
requirement. He assumed that, because the testimony or
giving of information addressed by § 1513 had already
occurred when the defendant retaliated, there would be no
difficulty proving that the defendant knew the federal
context. See 128 Cong. Rec. 26,354 n.13. However, for
criminals, who are inclined to exact revenge for their
associates’ cooperation with law enforcement, there is no
reason why they would have much interest in whether the
cooperation was with federal or state officials or whether
their testimony was in federal or state court, as both have
the capacity to secure long prison *137 sentences for
those aggrieved by the cooperation. As the evidence in
this case shows, the messages among those interested in
retaliation often say no more than to identify the intended
victim as “a rat” or a “snitch.” More refined details are
unnecessary to establishing the perceived need for
retaliation. Furthermore, the giving of information to
federal officials is often done in secret, as is the giving of
testimony to a grand jury (which functions under the
supervision of a federal court). Contrary to Mr. Rodino’s
assumption that, because the event has already happened,
there will be little difficulty proving that those who
retaliated knew of the federal context, those who know
enough to recognize that cooperation has occurred often
do not know, and do not care, about the details. It is a safe
assumption that in the cases of numerous violent
retaliations, it would be impossible to prove the
defendant’s knowledge that the proceedings or the
officers were federal. We have no reason to believe that
other members of Congress who voted to pass § 1513 did
not understand how courts conventionally applied mens
rea requirements to jurisdictional elements or did not
have a better understanding of the realities of organized
crime. It seems logical to assume that other members of
Congress would have passed § 1513 with awareness that
the courts would follow the default practice of not making
the knowledge requirement applicable to jurisdictional
elements (unless the words of the statute called for this
interpretation), and with awareness of how problematic it
would be for the enforcement of the statute if it were
construed to require proof of knowledge that the
proceedings or officials were federal.

Accordingly, we conclude that 18 U.S.C. § 1513(b)(1)
does not require the government to prove that the
defendant knew that the “official proceeding” was federal,
as specified in 18 U.S.C. § 1515(a)(1). Because it was not
necessary for the Government to prove that Cotto knew
that the Martinez trial was a trial in federal court, we need
not consider whether the Government’s evidence was
sufficient to establish such knowledge.19

ii. The district court’s limitation on Cotto’s
cross-examination of Hecht
[9] [10] [11]
Cotto also challenges the district court’s denial of
his motion for a new trial under Federal Rule of Criminal
Procedure 33, arguing that the district court erred by
limiting his counsel’s cross-examination of Hecht. Rule
33 motions are “granted only in extraordinary
circumstances, and are committed to the trial court’s
United States v. Torres, 128 F.3d 38, 48
discretion.”
(2d Cir. 1997) (internal quotation marks and citations
omitted). Before ordering a new trial under Rule 33, the
district court must find that there is a “real concern that an
United
innocent person may have been convicted.”
States v. Ferguson, 246 F.3d 129, 134 (2d Cir. 2001)
(citation omitted). We review challenges to a district
court’s denial of a Rule 33 motion for abuse of discretion,
accepting the district court’s factual findings unless
clearly erroneous. *138 United States v. McCourty, 562
United States v.
F.3d 458, 475 (2d Cir. 2009); see also
White, 692 F.3d 235, 244 (2d Cir. 2012) (“We review
evidentiary rulings, including a trial court’s decision to
limit the scope of cross-examination, for abuse of
discretion.” (citation omitted)).
[12]

As explained above, during Hecht’s cross-examination,
Cotto’s counsel played to the jury four recordings of
phone calls in which Hecht had said that he beat
Maldonado because he was “having a bad day.” These
tapes were relevant under Federal Rule of Evidence
613(b) as prior inconsistent statements tending to
discredit Hecht’s testimony that he beat Maldonado
because Cotto told him to do it because Maldonado was a
rat. After Cotto’s counsel had played four tapes and
prepared to play a fifth, the district court sustained the
Government’s objection on the ground that a fifth tape
would be cumulative.
In its opinion denying Cotto’s Rule 33 motion, the district
court explained its decision to sustain the Government’s
objection as follows:

A-11

[Cotto’s] arguments must be
considered against the backdrop of
Hecht’s entire cross-examination.
Before the tapes were played,
Hecht acknowledged — multiple
times — that his trial testimony
was inconsistent with statements he
had made during his first interview
with DEA agents and during
several subsequent phone calls. The
Court then allowed defense counsel
to play excerpts from four tapes
containing, in substance, the same
inconsistent statements that Hecht
had
just
admitted
making.
Likewise, co-Defendant Escalera
vigorously cross-examined Hecht
about his many inconsistent
statements, at one point getting
Hecht to admit that he had lied “20
or 30” times “about this event.” ...
[I]t is difficult to discern how
allowing [Cotto] to play two
additional tape excerpts with
inconsistent statements would have
led the jury — after hearing Hecht
admit multiple times that he had
lied about the events in this case —
to conclude that Hecht’s testimony
was not truthful.

Cotto, 2018 WL 2410374, at *10–11. On appeal, Cotto
argues — as he did below — that the district court’s
decision to “truncate” his counsel’s cross-examination of
Hecht by limiting counsel’s ability to play the tape
recordings “deprived him of his best opportunity to show
that Hecht was ... an opportunist” and testified
untruthfully. Br. of Appellant at 28, 33. Cotto highlights
the importance of Hecht’s testimony to the Government’s
case, see id. at 20–30, 32, and argues that allowing his
counsel to play additional material to the jury would not
have consumed an “inordinate amount of time or
resources,” id. at 33. We conclude that it was reasonable
and entirely within the district court’s discretion to sustain
the Government’s objection to the playing of a fifth tape.
United States v. Flaharty, 295 F.3d 182, 190–91
See
(2d Cir. 2002) (“[A] trial court has wide discretion to
impose limitations on the cross-examination of witnesses
... [and] may exclude even relevant evidence if it finds
that [its] probative value ... is substantially outweighed ...
by considerations of undue delay, waste of time, or
needless presentation of cumulative evidence.” (internal
quotation marks and citation omitted)).

iii. Sentencing enhancement for “substantial
interference with the administration of justice”
[13] [14]
Cotto further challenges the district court’s
imposition of a sentencing enhancement under
U.S.S.G. § 2J1.2(b)(2) on the grounds that the attack
on Maldonado caused a “substantial interference with the
administration of justice.” Br. of Appellant at 34–40. The
facts justifying a *139 sentence imposed under the
Guidelines need be proved only by a preponderance of the
United States v. Guerra, 888 F.2d 247, 251
evidence.
(2d Cir. 1989). We review challenges to criminal
sentences for procedural reasonableness, a standard “akin
United States v.
to review for abuse of discretion,”
Parnell, 524 F.3d 166, 169 (2d Cir. 2008) (citation
omitted), which requires us to review the district court’s
interpretation of the Guidelines de novo, and its findings
id.
of fact for clear error,
The relevant Guideline provides for a three-level increase
“[i]f the offense resulted in substantial interference with
U.S.S.G. § 2J1.2(b)(2).
the administration of justice.”
The commentary to the Guidelines defines “substantial
interference with the administration of justice” to
“include[ ] a premature or improper termination of a
felony investigation; an indictment, verdict, or any
judicial determination based upon perjury, false
testimony, or other false evidence; or the unnecessary
expenditure of substantial governmental or court
resources.” Id. cmt. application note 1. We have held that
the commentary’s “listing of acts warranting this
enhancement is not exclusive,” and recognized that “other
acts — if similarly or even more disruptive of the
administration of justice — could serve as bases” for the
United States v. Amer, 110 F.3d 873,
enhancement.
885 (2d Cir. 1997). Accordingly, we have held that
offenses that prevent or substantially interfere with
“proper legal proceedings” qualify for the enhancement.
Id. at 885 (enhancement applied when defendant
removed children from the country which “prevented
proper legal proceedings [relating to custody] from
United States v. Jones, 900 F.2d 512, 522
occurring”);
(2d Cir. 1990) (noting that “[i]n some cases, when the
defendant has concealed evidence and is the only known
source of information, substantial interference with the
administration of justice may be inferred” (citations
omitted)).20

A-12

[15]

The beating of Maldonado not only required a
substantial delay of his testimony in the Martinez trial, but
also resulted in the impairment of Maldonado’s capacities
as a witness. Thomas S. Duszkiewicz, an Assistant United
States Attorney who participated in that proceeding,
testified at Cotto’s trial that when Maldonado resumed his
testimony after the beating,

[Maldonado] did not seem to
remember the details about which
he was crystal clear prior to the
assault. ... [H]is answers became
significantly shorter, whether it was
pain from the injuries or whether it
was some other impairment or
impediment to him consciously
retelling the story as he had told it
several times previously. His
capacity
was
substantially
diminished.

App’x at 175. We have no doubt that the brutal beating of
a witness during his testimony, resulting in a three-week
delay of the witness’s testimony and causing a substantial
and noticeable diminution in the witness’s capacity or
willingness to testify, qualifies as a “substantial
interference with the administration of justice.” While the
results of Cotto’s offense do not fit neatly within the
U.S.S.G. §
examples listed in the commentary to
2J1.2, that list is “not exclusive” and Cotto’s offense is
one of those “other acts ... similarly ... disruptive *140 of
the administration of justice” that may nonetheless qualify
Amer, 110 F.3d at 885. We
for the enhancement.
therefore uphold the district court’s application of the
U.S.S.G. § 2J1.2.
three-level enhancement under

iv. Conditions of supervised release
Cotto also challenges two conditions of supervised release
imposed in the district court’s September 24, 2018
judgment. First, he challenges the special condition
requiring him to undergo substance abuse treatment “as
deemed necessary by the U.S. Probation Office and/or the
Court,” and prohibiting him from leaving treatment “until
discharge is agreed to by the U.S. Probation Office and/or
the Court,” on the grounds that the condition
impermissibly delegates to the Probation Office the
discretion to determine whether Cotto must undergo such

treatment, what treatment is “necessary,” and when he is
permitted to leave treatment. The Government points out
that the Western District of New York has since revised
its special condition language, and that the revised
condition expressly requires the court — and not the
probation officer — to approve the substance abuse
treatment and to decide when the defendant may leave
treatment. The Government consents to a limited remand
to permit the court to amend the judgment according to
the revised special condition language. Br. of Appellee at
29–30. Cotto agrees that amending the judgment
according to the revised language would address his
concerns. Reply Br. of Appellant at 16. Accordingly, we
remand for revision of the provision of the sentence
relating to the substance abuse treatment condition of
supervised release.
Second, Cotto challenges the district court’s imposition of
its standard conditions of supervised release, on the
grounds that those conditions include a “risk notification”
provision that has since been held unconstitutional by this
court’s decision in United States v. Boles, 914 F.3d 95,
110–12 (2d Cir. 2019). The Government points out that
the district court has since issued a standing order
modifying this condition. Cotto, however, argues that the
risk notification provision in the district court’s standing
order still impermissibly delegates judicial authority to
the Probation Office. Reply Br. of Appellant at 14–16.
Our panel cannot resolve this issue at this time because
another panel of our court is considering the same issue in
a pending appeal, which has priority over this case. See
United States v. Traficante, No. 18-1962 (submitted Oct.
25, 2019). In all likelihood, what is decided by that panel
will control our decision of Cotto’s challenge to the
district court’s revised “risk notification” provision.
Accordingly, the district court should consider, on
remand, our forthcoming decision in Traficante and, if
necessary, modify the relevant provision of Cotto’s
sentence so that it is consistent with that decision. We
further grant the parties leave to reinstate this appeal, by
letter to the Clerk of Court, to permit review of the district
court’s decision on remand as to the risk notification
provision.

C. CONCLUSION
For the foregoing reasons, we AFFIRM the judgment of
conviction, but REMAND for revision of the provision of
the sentence relating to the substance abuse treatment
condition of supervised release, and further instruct the

A-13

district court to consider on remand whether our
forthcoming order in United States v. Traficante, No.
18-1962 (2d Cir., submitted Oct. 25, 2019) requires
further modification of the risk notification provision of
supervised release. Finally, we grant the parties leave to
reinstate this appeal to permit review of *141 the district
court’s decision on remand as to the risk notification
provision.

All Citations
957 F.3d 122

Footnotes

1

The Government charged Cotto and Escalera under 18 U.S.C. § 2, which could establish their liability on
either of two different theories of culpability: first, that Cotto and Escalera aided and abetted Hecht’s act of
retaliation in violation of § 1513(b)(1), under 18 U.S.C. § 2(a) (making punishable as a principal any person
who “aids [or] abets” an offense against the United States); or second, that Cotto and Escalera willfully
caused Hecht’s act of retaliation in violation of § 1513(b)(1), under 18 U.S.C. § 2(b) (making punishable as
a principal any person who “willfully causes an act to be done which if directly performed by him or another
would be an offense against the United States”). See United States v. Cotto, No. 14-cr-133-A, 2018 WL
2410374, at *3–6 (W.D.N.Y. May 29, 2018).

2

The district court further instructed the jury that “the government need not prove that the defendant had
knowledge of the case name and the case number for the particular official federal proceeding, nor ... is [it]
necessary for the government to prove that the defendant knew he was breaking any particular law.” App’x
at 855.

3

Cotto also moved for a new trial under Rule 33 of the Federal Rules of Criminal Procedure, arguing, inter
alia, that the district court improperly cut short his counsel’s cross-examination of Hecht by disallowing
counsel to play more than four recordings of calls during which Hecht relayed to various individuals his
“cover story” for the Maldonado beating. See Dist. Ct. Dkt. No. 270 at 8–9. The district court denied the
motion, holding, as it did during trial, that the additional tapes were cumulative. Cotto, 2018 WL 2410374,
at *11.

4

The PSR recommended application of the enhancement because “[t]he injuries sustained by the trial
witness at the hands of the defendant were severe and required the expenditure of a substantial amount of
time and money to address and prevented the trial witness from continuing his testimony ... for several
weeks, which interfered with the Government’s presentation of its trial evidence.” Dist. Ct. Dkt. No. 314 at
8.

5

The district court explained that the enhancement was justified because Cotto’s actions had “caused the
victim to sustain significant injuries that altered the victim’s testimony and required several weeks delay in
the completion of the victim’s testimony.” App’x at 931.

6

In its reply to Cotto’s post-trial motions arguing that the evidence of Cotto’s knowledge of the federal nature
of the Martinez trial was insufficient, the Government did not argue that such a showing of knowledge was
not required under § 1513(b)(1). The district court therefore did not consider this argument and denied
Cotto’s post-trial motions on the basis that the evidence was in fact sufficient.

7

8

See
United States v. Draper, 553 F.3d 174, 180 (2d Cir. 2009) (stating elements of an offense under §
1513(b)(2));
United States v. Brown, 937 F.2d 32, 36 (2d Cir. 1991) (same).
Cotto argues that we resolved this issue in
United States v. Brown, 937 F.2d 32. See Br. of Appellant at
18, 20. We disagree. Our holding in
Brown — which concerned a different provision of § 1513,

A-14

prohibiting retaliation for information provided to federal “law enforcement officers” — did not depend on
whether § 1513 required proof that the defendant knew he was retaliating against his victim for providing
information to federal officers. While our opinion cited evidence which “could have reasonably led the jury
to infer that [the defendant] was aware of the federal scope of the investigation,” it did not hold that the
Government needed to prove that knowledge.
Brown, 937 F.2d at 37. The point of that aspect of the
opinion was the obligation of the Government to prove “that [the victim’s] contact with law enforcement
officials ... involved federal officers” and that the evidence was sufficient for the jury to find that the
defendant acted with retaliatory intent.
Id. at 35–37 (discussing the “[e]vidence of [r]etaliatory [i]ntent,”
id. at 35). No part of the
Brown opinion holds that knowledge of federal involvement is a required
element of an offense under 18 U.S.C. § 1513(b)(2).
The only other decision of a United States Court of Appeals to consider this issue is a non-precedential
ruling of the Fourth Circuit in
United States v. Bullock, 603 F. App’x 157 (4th Cir. 2015), which held,
without explanation, that the district court below had “properly instruct[ed] the jury that to convict [the
defendant] under 18 U.S.C. § 1513(b)(1), it needed to find that [the defendant] knew the official proceeding
was a federal one.”
Id. at 159. While we consider rulings in other courts for their persuasiveness, we are
not obligated to follow them. In this case, for reasons here set forth, we do not consider the
Bullock
ruling persuasive.
9

10

11

12

Of course, of these sources of guidance, the text of the statute is of paramount importance. See
Exxon
Mobil Corp. v. Allapattah Servs., Inc., 545 U.S. 546, 568, 125 S.Ct. 2611, 162 L.Ed.2d 502 (2005) (“As we
have repeatedly held, the authoritative statement is the statutory text, not the legislative history or any
other extrinsic material. Extrinsic materials have a role in statutory interpretation only to the extent they
shed a reliable light on the enacting Legislature’s understanding of otherwise ambiguous terms.”).
See also
United States v. Epskamp, 832 F.3d 154, 167 (2d Cir. 2016) (“[W]e have ‘repeatedly ...
refused to find knowledge of the jurisdictional fact to be an essential element in prosecutions under’ various
criminal statutes requiring, for instance, that the criminal acts affect interstate or foreign commerce.” (first
quoting
United States v. Eisenberg, 596 F.2d 522, 526 (2d Cir. 1979); then citing
United States v.
Green, 523 F.2d 229, 233–34 (2d Cir. 1975); and then citing
United States v. Herrera, 584 F.2d 1137,
1150 (2d Cir. 1978))).
See, e.g.,
United States v. Grande, 620 F.2d 1026, 1036–37 (4th Cir. 1980) (holding that
18 U.S.C.
§ 1510, which criminalizes obstruction of a criminal investigation, requires that the defendant know that the
relevant officer was a “federal criminal investigator” based on legislative history indicating that “if a person
does not know that the investigator is a federal investigator, an act which would normally be in violation
would not be so because of the lack of the scienter as to the identity of the investigator” (quoting H.R. Rep.
No. 90-658 (1967), as reprinted in 1967 U.S.C.C.A.N. 1760, 1762)).
The defendant in

Yermian admitted that he had made false statements to his employer (a private

defense contractor) on a Department of Defense security questionnaire, but defended against the
§
1001 charge by claiming that he “had no actual knowledge that his false statements would be transmitted
to a federal agency.”
Id. at 65–66, 104 S.Ct. 2936.
13

14

Congress amended
§ 1001 in 1996, replacing the language “within the jurisdiction of any department or
agency of the United States” with “within the jurisdiction of the executive, legislative, or judicial branch of
the Government of the United States.” Pub. L. No. 104-292, § 2, 110 Stat. 3459 (1996).
A 1980 House Report concerning the proposed Criminal Code Revision Act, from which Congress drew
considerably when drafting the bill containing § 1513, see S. Rep. 97-532 at 10, notes that “[s]ome current
laws have been interpreted as requiring that the prosecution prove that the defendant had a particular

A-15

mental state in connection with the jurisdictional basis of the offense, even though the existence of such an
‘anti-Federal’ intent has nothing to do with the actor’s culpability,” and proposes that federal criminal
statutes “specify the Federal jurisdiction over an offense in a separate subsection of the offense” to avoid
confusion between substantive and jurisdictional elements. H.R. Rep. No. 96-1396, at 15–16H.R. Rep. No.
96-1396, at 15–16 (1980); 128 Cong. Rec. 26,351 (1982) (statement of Chairman Rodino) (citing this
section of the 1980 House Report); see also United States v. Noel, 893 F.3d 1294, 1298 (11th Cir. 2018)
(holding that
18 U.S.C. § 1203, which criminalizes hostage taking outside the United States as long as
the hostage is a “national of the United States,” does not require a showing that the defendant knew the
citizenship status of the hostage, in part because “the requirement that the victim be American is set forth
in a different subsection of the statute than the elements that are designated as punishable”).
15

The Senate Report discussed an earlier version of the proposed Victims and Witness Protection Act,
introduced in the Senate on September 16, 1982, which included in both
Sections 1512 and 1513 a
subsection entitled “Jurisdiction” providing that “[t]here is Federal jurisdiction over an offense described in
this section if— ... the official proceeding, offense, or prosecution is or would be a Federal official
proceeding, offense, or prosecution.” See S. 2420, 97th Cong.
§ 201 (1982). The enacted version of the
bill did not include these jurisdictional elements in
Sections 1512 or 1513, instead including them in §
1515(a), which provides definitions for terms used in those substantive provisions. See Victim and Witness
Protection Act of 1982, Pub. L. No. 97-291, § 4(a), 96 Stat. 1248 (1982).

16

17

Cf. Ardito, 782 F.2d at 360 (noting, in a case regarding two defendants who had attempted to obstruct a
federal criminal trial, that the Government’s evidence, consisting of tape recorded conversations during
which the defendants planned their obstruction, “did not contain any statements which would suggest that
appellants knew that the ... [obstructed trial was] in federal court”).
See
Feola, 420 U.S. at 676 n.9, 95 S.Ct. 1255 (“[T]he existence of the fact that confers federal
jurisdiction need not be one in the mind of the actor at the time he perpetrates the act made criminal by the
federal statute.”); see also United States v. Cooper, 482 F.3d 658, 665 (4th Cir. 2007) (“Congress
legislates against [the] well-established backdrop, aware that jurisdictional elements generally assert
federal jurisdiction but do not create additional statutory elements as to which defendants must have
formed the appropriate mens rea in order to have broken the law.”).

18

Reading § 1513 to exclude any requirement of the defendant’s knowledge of the federal nature of the
“official proceeding” would arguably render
18 U.S.C. § 1512(g), which accomplishes the same effect in
the context of § 1513’s sister provision, superfluous. However, the canon disfavoring statutory
interpretations that render text superfluous is not “woodenly appl[ied]” and permits such readings where, as
here, “Congress may have simply intended to remove any doubt” about a statute’s meaning.
Ali v. Fed.
Bureau of Prisons, 552 U.S. 214, 226, 128 S.Ct. 831, 169 L.Ed.2d 680 (2008).

19

Because we reject Cotto’s challenge to the district court’s denial of his motion for a judgment of acquittal
under Rule 29 of the Federal Rules of Criminal Procedure on the grounds that the Government did not
need to prove that Cotto knew that the Martinez trial was an “official proceeding” as defined by §
1515(a)(1), and accordingly affirm the district court’s denial of Cotto’s motion on the grounds that the
evidence was sufficient for a reasonable jury to find that Cotto willfully caused the retaliatory act under 18
U.S.C. § 2(b), see Cotto, 2018 WL 2410374, at *4–6, we need not consider Cotto’s argument that his
conviction under § 1513(b)(1) was invalid under an aiding and abetting theory pursuant to 18 U.S.C. § 2(a).
See Br. for Appellant at 17–20.

20

See also United States v. Waterman, 755 F.3d 171, 173 (3d Cir. 2014) (affirming application of
§
2J1.2(b)(2) enhancement based on the defendant’s destruction of a hard drive, which “resulted in the early
termination of [an] FBI investigation”); United States v. Gray, 692 F.3d 514, 522–23 (6th Cir. 2012)
(affirming application of

§ 2J1.2(b)(2) enhancement based on defendant’s “falsification of documents”

A-16

which made an ongoing investigation “more difficult and delayed [the defendant’s] trial for four years”).

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A-17

United States Code Annotated
ITitle 18. Crimes and Criminal Procedure (Refs & Annos)
IPart I. Crimes (Refs & Annos)
IChapter 73. Obstruction of Justice (Refs & Annos)
18 U.S.C.A. § 1513
§ 1513. Retaliating against a witness, victim, or an informant
Effective: January 7, 2008
Currentness

(a)(1) Whoever kills or attempts to kill another person with intent to retaliate against any person for--

(A) the attendance of a witness or party at an official proceeding, or any testimony given or any record, document, or other
object produced by a witness in an official proceeding; or

(B) providing to a law enforcement officer any information relating to the commission or possible commission of a Federal
offense or a violation of conditions of probation, supervised release, parole, or release pending judicial proceedings,

shall be punished as provided in paragraph (2).

(2) The punishment for an offense under this subsection is--

(A) in the case of a killing, the punishment provided in sections 1111 and 1112; and

(B) in the case of an attempt, imprisonment for not more than 30 years.

(b) Whoever knowingly engages in any conduct and thereby causes bodily injury to another person or damages the tangible
property of another person, or threatens to do so, with intent to retaliate against any person for--

(1) the attendance of a witness or party at an official proceeding, or any testimony given or any record, document, or other
object produced by a witness in an official proceeding; or

A-18

(2) any information relating to the commission or possible commission of a Federal offense or a violation of conditions of
probation, supervised release, parole, or release pending judicial proceedings given by a person to a law enforcement
officer;

or attempts to do so, shall be fined under this title or imprisoned not more than 20 years, or both.

(c) If the retaliation occurred because of attendance at or testimony in a criminal case, the maximum term of imprisonment
which may be imposed for the offense under this section shall be the higher of that otherwise provided by law or the
maximum term that could have been imposed for any offense charged in such case.

(d) There is extraterritorial Federal jurisdiction over an offense under this section.

(e) Whoever knowingly, with the intent to retaliate, takes any action harmful to any person, including interference with the
lawful employment or livelihood of any person, for providing to a law enforcement officer any truthful information relating
to the commission or possible commission of any Federal offense, shall be fined under this title or imprisoned not more than
10 years, or both.

(f) Whoever conspires to commit any offense under this section shall be subject to the same penalties as those prescribed for
the offense the commission of which was the object of the conspiracy.

(g) A prosecution under this section may be brought in the district in which the official proceeding (whether pending, about
to be instituted, or completed) was intended to be affected, or in which the conduct constituting the alleged offense occurred.

CREDIT(S)
(Added Pub.L. 97-291, § 4(a), Oct. 12, 1982, 96 Stat. 1250; amended Pub.L. 103-322, Title VI, § 60017, Title XXXIII, §
330016(1)(U), Sept. 13, 1994, 108 Stat. 1975, 2148; Pub.L. 104-214, § 1(1), Oct. 1, 1996, 110 Stat. 3017; Pub.L. 107-204,
Title XI, § 1107(a), July 30, 2002, 116 Stat. 810; Pub.L. 107-273, Div. B, Title III, § 3001(b), (c)(2), Title IV, § 4002(b)(4),
Nov. 2, 2002, 116 Stat. 1804, 1807; Pub.L. 110-177, Title II, §§ 204, 206, Jan. 7, 2008, 121 Stat. 2537.)

Notes of Decisions (59)

18 U.S.C.A. § 1513, 18 USCA § 1513
Current through P.L. 116-147.
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A-19

United States Code Annotated
ITitle 18. Crimes and Criminal Procedure (Refs & Annos)
IPart I. Crimes (Refs & Annos)
IChapter 73. Obstruction of Justice (Refs & Annos)
18 U.S.C.A. § 1515
§ 1515. Definitions for certain provisions; general provision
Effective: October 11, 1996
Currentness

(a) As used in sections 1512 and 1513 of this title and in this section--

(1) the term “official proceeding” means--

(A) a proceeding before a judge or court of the United States, a United States magistrate judge, a bankruptcy judge, a
judge of the United States Tax Court, a special trial judge of the Tax Court, a judge of the United States Court of Federal
Claims, or a Federal grand jury;

(B) a proceeding before the Congress;

(C) a proceeding before a Federal Government agency which is authorized by law; or

(D) a proceeding involving the business of insurance whose activities affect interstate commerce before any insurance
regulatory official or agency or any agent or examiner appointed by such official or agency to examine the affairs of any
person engaged in the business of insurance whose activities affect interstate commerce;

(2) the term “physical force” means physical action against another, and includes confinement;

(3) the term “misleading conduct” means--

(A) knowingly making a false statement;

A-20

(B) intentionally omitting information from a statement and thereby causing a portion of such statement to be
misleading, or intentionally concealing a material fact, and thereby creating a false impression by such statement;

(C) with intent to mislead, knowingly submitting or inviting reliance on a writing or recording that is false, forged,
altered, or otherwise lacking in authenticity;

(D) with intent to mislead, knowingly submitting or inviting reliance on a sample, specimen, map, photograph, boundary
mark, or other object that is misleading in a material respect; or

(E) knowingly using a trick, scheme, or device with intent to mislead;

(4) the term “law enforcement officer” means an officer or employee of the Federal Government, or a person authorized to
act for or on behalf of the Federal Government or serving the Federal Government as an adviser or consultant--

(A) authorized under law to engage in or supervise the prevention, detection, investigation, or prosecution of an offense;
or

(B) serving as a probation or pretrial services officer under this title;

(5) the term “bodily injury” means--

(A) a cut, abrasion, bruise, burn, or disfigurement;

(B) physical pain;

(C) illness;

(D) impairment of the function of a bodily member, organ, or mental faculty; or

A-21

(E) any other injury to the body, no matter how temporary; and

(6) the term “corruptly persuades” does not include conduct which would be misleading conduct but for a lack of a state of
mind.

(b) As used in section 1505, the term “corruptly” means acting with an improper purpose, personally or by influencing
another, including making a false or misleading statement, or withholding, concealing, altering, or destroying a document or
other information.

(c) This chapter does not prohibit or punish the providing of lawful, bona fide, legal representation services in connection
with or anticipation of an official proceeding.

CREDIT(S)
(Added Pub.L. 97-291, § 4(a), Oct. 12, 1982, 96 Stat. 1252; amended Pub.L. 99-646, § 50(b), Nov. 10, 1986, 100 Stat. 3605;
Pub.L. 100-690, Title VII, § 7029(b), (d), Nov. 18, 1988, 102 Stat. 4398; Pub.L. 101-650, Title III, § 321, Dec. 1, 1990, 104
Stat. 5117; Pub.L. 102-572, Title IX, § 902(b)(1), Oct. 29, 1992, 106 Stat. 4516; Pub.L. 103-322, Title XXXII, § 320604(a),
Sept. 13, 1994, 108 Stat. 2118; Pub.L. 104-292, § 3, Oct. 11, 1996, 110 Stat. 3460; Pub.L. 104-294, Title VI, § 604(b)(39),
Oct. 11, 1996, 110 Stat. 3509.)

Notes of Decisions (11)

18 U.S.C.A. § 1515, 18 USCA § 1515
Current through P.L. 116-147.
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A-22

KeyCite Yellow Flag - Negative Treatment
Proposed Legislation

United States Code Annotated
ITitle 18. Crimes and Criminal Procedure (Refs & Annos)
IPart I. Crimes (Refs & Annos)
IChapter 73. Obstruction of Justice (Refs & Annos)
18 U.S.C.A. § 1512
§ 1512. Tampering with a witness, victim, or an informant
Effective: January 7, 2008
Currentness

(a)(1) Whoever kills or attempts to kill another person, with intent to--

(A) prevent the attendance or testimony of any person in an official proceeding;

(B) prevent the production of a record, document, or other object, in an official proceeding; or

(C) prevent the communication by any person to a law enforcement officer or judge of the United States of information
relating to the commission or possible commission of a Federal offense or a violation of conditions of probation, parole, or
release pending judicial proceedings;

shall be punished as provided in paragraph (3).

(2) Whoever uses physical force or the threat of physical force against any person, or attempts to do so, with intent to--

(A) influence, delay, or prevent the testimony of any person in an official proceeding;

(B) cause or induce any person to--

A-23

(i) withhold testimony, or withhold a record, document, or other object, from an official proceeding;

(ii) alter, destroy, mutilate, or conceal an object with intent to impair the integrity or availability of the object for use in
an official proceeding;

(iii) evade legal process summoning that person to appear as a witness, or to produce a record, document, or other
object, in an official proceeding; or

(iv) be absent from an official proceeding to which that person has been summoned by legal process; or

(C) hinder, delay, or prevent the communication to a law enforcement officer or judge of the United States of information
relating to the commission or possible commission of a Federal offense or a violation of conditions of probation,
supervised release, parole, or release pending judicial proceedings;

shall be punished as provided in paragraph (3).

(3) The punishment for an offense under this subsection is--

(A) in the case of a killing, the punishment provided in sections 1111 and 1112;

(B) in the case of--

(i) an attempt to murder; or

(ii) the use or attempted use of physical force against any person;

imprisonment for not more than 30 years; and

(C) in the case of the threat of use of physical force against any person, imprisonment for not more than 20 years.

(b) Whoever knowingly uses intimidation, threatens, or corruptly persuades another person, or attempts to do so, or engages
in misleading conduct toward another person, with intent to--

A-24

(1) influence, delay, or prevent the testimony of any person in an official proceeding;

(2) cause or induce any person to--

(A) withhold testimony, or withhold a record, document, or other object, from an official proceeding;

(B) alter, destroy, mutilate, or conceal an object with intent to impair the object’s integrity or availability for use in an
official proceeding;

(C) evade legal process summoning that person to appear as a witness, or to produce a record, document, or other object,
in an official proceeding; or

(D) be absent from an official proceeding to which such person has been summoned by legal process; or

(3) hinder, delay, or prevent the communication to a law enforcement officer or judge of the United States of information
relating to the commission or possible commission of a Federal offense or a violation of conditions of probation1
supervised release,,2 parole, or release pending judicial proceedings;

shall be fined under this title or imprisoned not more than 20 years, or both.

(c) Whoever corruptly--

(1) alters, destroys, mutilates, or conceals a record, document, or other object, or attempts to do so, with the intent to
impair the object’s integrity or availability for use in an official proceeding; or

(2) otherwise obstructs, influences, or impedes any official proceeding, or attempts to do so,

shall be fined under this title or imprisoned not more than 20 years, or both.

(d) Whoever intentionally harasses another person and thereby hinders, delays, prevents, or dissuades any person from--

A-25

(1) attending or testifying in an official proceeding;

(2) reporting to a law enforcement officer or judge of the United States the commission or possible commission of a
Federal offense or a violation of conditions of probation1 supervised release,,2 parole, or release pending judicial
proceedings;

(3) arresting or seeking the arrest of another person in connection with a Federal offense; or

(4) causing a criminal prosecution, or a parole or probation revocation proceeding, to be sought or instituted, or assisting in
such prosecution or proceeding;

or attempts to do so, shall be fined under this title or imprisoned not more than 3 years, or both.

(e) In a prosecution for an offense under this section, it is an affirmative defense, as to which the defendant has the burden of
proof by a preponderance of the evidence, that the conduct consisted solely of lawful conduct and that the defendant’s sole
intention was to encourage, induce, or cause the other person to testify truthfully.

(f) For the purposes of this section--

(1) an official proceeding need not be pending or about to be instituted at the time of the offense; and

(2) the testimony, or the record, document, or other object need not be admissible in evidence or free of a claim of
privilege.

(g) In a prosecution for an offense under this section, no state of mind need be proved with respect to the circumstance--

(1) that the official proceeding before a judge, court, magistrate judge, grand jury, or government agency is before a judge
or court of the United States, a United States magistrate judge, a bankruptcy judge, a Federal grand jury, or a Federal
Government agency; or

(2) that the judge is a judge of the United States or that the law enforcement officer is an officer or employee of the Federal
Government or a person authorized to act for or on behalf of the Federal Government or serving the Federal Government
as an adviser or consultant.

A-26

(h) There is extraterritorial Federal jurisdiction over an offense under this section.

(i) A prosecution under this section or section 1503 may be brought in the district in which the official proceeding (whether
or not pending or about to be instituted) was intended to be affected or in the district in which the conduct constituting the
alleged offense occurred.

(j) If the offense under this section occurs in connection with a trial of a criminal case, the maximum term of imprisonment
which may be imposed for the offense shall be the higher of that otherwise provided by law or the maximum term that could
have been imposed for any offense charged in such case.

(k) Whoever conspires to commit any offense under this section shall be subject to the same penalties as those prescribed for
the offense the commission of which was the object of the conspiracy.

CREDIT(S)
(Added Pub.L. 97-291, § 4(a), Oct. 12, 1982, 96 Stat. 1249; amended Pub.L. 99-646, § 61, Nov. 10, 1986, 100 Stat. 3614;
Pub.L. 100-690, Title VII, § 7029(a), (c), Nov. 18, 1988, 102 Stat. 4397, 4398; Pub.L. 101-650, Title III, § 321, Dec. 1, 1990,
104 Stat. 5117; Pub.L. 103-322, Title VI, § 60018, Title XXXIII, § 330016(1)(O), (U), Sept. 13, 1994, 108 Stat. 1975, 2148;
Pub.L. 104-214, § 1(2), Oct. 1, 1996, 110 Stat. 3017; Pub.L. 104-294, Title VI, § 604(b)(31), Oct. 11, 1996, 110 Stat. 3508;
Pub.L. 107-204, Title XI, § 1102, July 30, 2002, 116 Stat. 807; Pub.L. 107-273, Div. B, Title III, § 3001(a), (c)(1), Nov. 2,
2002, 116 Stat. 1803, 1804; Pub.L. 110-177, Title II, § 205, Jan. 7, 2008, 121 Stat. 2537.)

Notes of Decisions (468)

Footnotes

1

So in original. A comma probably should appear.
2

So in original. The second comma probably should not appear.

18 U.S.C.A. § 1512, 18 USCA § 1512
Current through P.L. 116-147.
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A-27

